No. 19-1144
In The
SUPREME COURT OF THE UNITED STATES
MICHAEL MCCARRON
Petitioner
v.
DeCARLO & SHANLEY, P.C.
Respondent
On Petition for Writ of Certiorari
To the United States Court of Appeals for the Ninth Circuit
PETITIONER MICHAEL MCCARRON'S
MOTION TO DELAY DISTRIBUTION OF
PETITION FOR WRIT OF CERTIORARI
AND FOR ADDITIONAL TIME TO FILE
REPLY BRIEF
Michael McCarron, Appellant in pro per
22510 Needles Street
Chatsworth, California 91311
Telephone (818) 540-8801

MOTION TO DELAY DISTRIBUTION OF PETITION FOR
WRIT OF CERTIORARI AND FOR ADDITIONAL TIME TO FILE
REPLY BRIEF
Pursuant to Supreme Court Rule 30.4, and this Court's Orders dated
March 19, 2020 and April 15, 2020, respectively, Petitioner Michael
McCarron respectfully requests that this Court delay the distribution of his
pending Petition for Writ of Certiorari and that he be permitted to file his
reply to Respondent's brief opposing the aforementioned petition.
Petitioner requests that the distribution of his Petition be delayed until June
8, 2020. The basis of this request is that Petitioner needs additional time
because his ability to file his reply brief has been delayed due to difficulties
relating to the COVID-19 pandemic.
Petitioner has conferred with Respondent who has indicated it
opposes this motion.
DATED: May 26, 2020
BY:

/s/ Michael McCarron
Michael McCarron, Petitioner in
pro per

PROOF OF SERVICE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES, United States
I Yastmin Aguilar reside in the County of Los Angeles, State of
California. I am over the age of 18 years and not a party to this action; my
address is 10228 Oklahoma Ave, Chatsworth, CA 91311.
On May 26, 2020, I served the foregoing document described
as MOTION TO DELAY ETC. on the interested parties in this action by
placing a true copy thereof enclosed in a sealed envelope in the United
States mail at Oak Park, California, addressed as follows:
DeCarlo & Shanley
533 South Fremont Ave., 9th Floor
Los Angeles, CA 90071
X Via U.S. Mail: I am "readily familiar" with the practice of collection
and processing correspondence for mailing. Under that practice it would
be deposited with the U.S. postal service on that same day with postage
thereon fully prepaid at Oak Park, California in the ordinary course of
business. I am aware that on motion of the party served, service is
presumed invalid if postal cancellation date or postage meter date is more
than one day after date of deposit for mailing in affidavit.
I declare under penalty of perjury under the laws of the United
States that the above is true and correct.
Executed May 26, 2020 at Chatsworth, California.

Yastmin Aguilar

